                   U.S. Department of Energy
                   Office of Inspector General
                   Office of Audits and Inspections




AUDIT REPORT
Kansas City Plant's Vendor Quality
Assurance




 OAS-L-14-08                          May 2014
                                 Department of Energy
                                    Washington, DC 20585

                                          May 21, 2014


MEMORANDUM FOR THE MANAGER, KANSAS CITY FIELD OFFICE



FROM:                    David Sedillo, Director
                         Western Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Kansas City Plant's Vendor
                         Quality Assurance"

BACKGROUND

The National Nuclear Security Administration's (NNSA) Kansas City Plant (Plant), managed and
operated by Honeywell Federal Manufacturing & Technologies, LLC (Honeywell), is the
primary production site for non-nuclear weapon products. Honeywell procures and produces
products based on designs from the Department of Energy's (Department) national defense
laboratories (Design Agency). These products must meet demanding specifications and stringent
quality requirements.

In April 2013, during an on-site review of one of Honeywell's vendors, Honeywell and Sandia
National Laboratories (SNL) discovered that the vendor had deviated from Design Agency
requirements on parts supplied to the Plant. Subsequent to this discovery, SNL, the Design
Agency for the nonconforming parts, and Honeywell initiated a review to determine the extent of
the issue. Initially, Honeywell identified nine substituted materials and processes. The initial
review also found that the vendor substitutions were made without Honeywell's approval for
more than 25 years – since July 1985. Additional reviews identified another 18 substitutions for
a total of 27 deviations from Design Agency requirements. Ultimately, over 10,000 parts were
affected with between 1 and 6 substitutions per part. The affected parts had issues with
substituted processes, materials, adhesives and/or coatings.

In May 2013, Honeywell officials notified the Office of Inspector General of the vendor
substitution issue. In response, we initiated this audit to determine whether Honeywell's quality
assurance program for vendors was operating effectively to meet Design Agency requirements.

RESULTS OF AUDIT

Nothing came to our attention to indicate that Honeywell's quality assurance program did not
ensure Design Agency requirements were met. Specifically, Honeywell had implemented and
NNSA had approved a quality assurance program as required, performed inspections on parts
received from vendors, and documented nonconforming parts when they were identified. In
addition, during the same period as our audit, we noted that Honeywell had initiated its own
review of the vendor substitution issue to evaluate the impact of the substituted parts. Although
Honeywell believed that its overall vendor quality assurance program was effective, it issued two
Corrective Action Reports (CAR), which identified certain enhancements that would further
ensure that Design Agency requirements continued to be met.

Quality Assurance Program

We found that Honeywell had implemented a quality assurance program for vendor supplied
parts as required by Department/NNSA Weapon Quality Policy. Honeywell documented its
quality assurance program in its Quality and Management Assurance System Manual through
policies and procedures such as process descriptions, work instructions and various forms.
Honeywell's policies and procedures required evaluation of the items and materials received
from vendors to ensure that they conformed to applicable specifications. The policies and
procedures also required Honeywell to document any nonconforming parts. NNSA had
approved Honeywell's quality assurance program.

As an integral part of its quality assurance program, we noted that Honeywell performed product
inspections. The product inspections performed by Honeywell were accomplished according to
an inspection plan which detailed the elements the inspector must review for the selected part.
For example, the inspection plan identified what features or characteristics of the part were to be
inspected, the sample size or number of parts to be inspected, and the types of equipment used
for testing. Honeywell's quality engineers wrote the inspection plans, which were based on the
features contained in the Design Agency drawings. In the case of the previously discussed
vendor substituted parts, the substitutions were not immediately identified because the inspection
plan did not require the materials, adhesives and coatings used in manufacturing the parts to be
inspected because the Design Agency did not consider those items to be significant enough to
require individual testing.

Further, we noted that Honeywell documented nonconforming parts identified during its vendor
quality assurance activities. We selected a judgmental sample of 23 of Honeywell's 209 vendors
and requested their nonconformance report (NCR) data for the past 3 years. Honeywell
inspected over 19,000 parts from the sampled vendors and more than 3,000 NCRs were issued as
a result of the inspections. According to the NCR descriptions, the types of issues included:
burrs or nicks, failure to meet dimensional requirements, incorrect markings, failure to meet
defined tests, and incorrect documentation. Per Honeywell's policies and procedures, NCRs can
be resolved in several ways. For example, the nonconforming part can be accepted based on
Design Agency approval, reworked so that it meets specifications, accepted through modified
product requirements or scrapped. Honeywell's engineers ultimately determine the disposition of
nonconforming parts after applicable consultation with the Design Agency.

Honeywell Corrective Actions

To its credit, Honeywell took proactive action on the vendor substitution issue. For instance,
Honeywell initiated a review to evaluate the substituted parts' impact, if any, on weapon

                                                 2
performance. According to both Honeywell and SNL officials, they were primarily concerned
with the form, fit and function of a part. Thus, typically, if a part passed the form, fit and
function tests as defined by the Design Agency and Honeywell, it would pass inspection. Based
on reviews of extensive stockpile surveillance test data, both Honeywell and SNL officials stated
that the parts impacted by past substitutions will most likely be accepted because no adverse
impact on weapon performance had been identified. The acceptance of the substitutions is
expected to be completed by June 2014. In addition, Honeywell officials indicated that the
previously discussed substitutions would not impact its production schedule.

Honeywell also assessed controls over quality assurance activities at the vendor and internally.
Although Honeywell believed that its overall vendor quality assurance program was effective, it
issued two CARs which identified certain enhancements that would further ensure that Design
Agency requirements continued to be met. Honeywell issued one CAR to the vendor and the
other to itself. The vendor's CAR required corrective actions to strengthen its controls including
ensuring that all aspects of a product and its manufacturing processes meet current Design
Agency specifications. The vendor completed the corrective actions in August 2013 and
Honeywell verified the actions in December 2013.

Honeywell's corrective actions included:

   •   Performing First Article Inspection (FAI) for selected parts. Because not all aspects of a
       vendor's part are inspected, Honeywell plans to require vendors to perform to SAE
       (previously referred to as the Society of Automotive Engineers) Aerospace Standard
       AS9102A, FAI, on selected parts. According to Honeywell, parts will be selected
       according to defined criteria such as when the supplier is responsible for all or a portion
       of the product design and on higher complexity parts. FAI provides objective evidence
       that all engineering design and specification requirements are properly understood,
       accounted for, verified and documented. In addition, FAI validates the vendor's
       production process to ensure that the vendor is capable of producing parts and assemblies
       that meet engineering and design requirements.

   •   Requiring vendors to communicate all product changes to Honeywell officials. Purchase
       Order Quality Requirements advise a vendor to notify Honeywell of changes in
       production location and processes. However, the requirements did not address material
       and drawing requirement changes. These were addressed in the contract terms and
       conditions. Honeywell noted this oversight in the CAR. To correct it, Honeywell's
       purchasing organization issued an e-mail in September 2013 to its vendors requiring
       notification of any deviation from drawings or specifications. Honeywell stated that
       adherence to product and quality requirements is extremely important and potentially
       impacts national security. In addition to issuing the email, Honeywell also planned to
       update the Purchase Order Quality Requirements so that vendors must formally notify
       Honeywell of production changes.

   •   Conducting Supplier Qualification quality audits to focus on individual parts as well as
       overall processes. Previously, Honeywell's Supplier Qualification audits focused solely
       on the vendor's quality management system. Accordingly, the quality audits did not

                                                3
       address compliance with detailed part design requirements. Honeywell also did not
       perform product specific audits (i.e., auditing how a specific product is made) because
       product specific audits were only required when a product was first produced or
       following a major change. Honeywell plans to utilize the FAI process mentioned above
       to address this issue. Honeywell also plans to streamline quality audit requirements and
       emphasize product and process requirements.

SUGGESTED ACTIONS

Given Honeywell's actions to address the substitution issue and planned vendor quality assurance
program enhancements, we are not making formal recommendations. We do, however, suggest
that the Manager, Kansas City Field Office ensure that Honeywell completes all of the actions
identified in its CAR and accepts all product substitutions in a timely manner so that Design
Agency requirements continue to be met.

We appreciated the cooperation of your staff that provided information and assistance during the
audit.

Attachment

cc:    Deputy Secretary
       Administrator, National Nuclear Security Administration
       Chief of Staff




                                               4
                                                                                    Attachment


                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The audit objective was to determine whether Honeywell's quality assurance program for
vendors was operating effectively to meet Design Agency requirements.

SCOPE

We performed the audit between June 2013 and May 2014, at the Kansas City Plant and the
Kansas City Field Office in Kansas City, Missouri; Sandia National Laboratories in
Albuquerque, New Mexico; and Kansas City Plant vendors in Minneapolis and Rochester,
Minnesota. We conducted this audit under Office of Inspector General Project Number
A13LV042.

METHODOLOGY

To accomplish the audit objective, we:

   •   Performed walkthroughs of Honeywell's inspection process in Kansas City and toured
       Honeywell vendor facilities in Minnesota.

   •   Interviewed Federal and contractor personnel in Kansas City, contractor personnel in
       Albuquerque and vendors in Minnesota.

   •   Reviewed Department/NNSA Weapon Quality Policy and other applicable guidance,
       policies and procedures.

   •   Selected a judgmental sample of 23 Honeywell vendors from a population of 209 and
       reviewed their nonconformance report data for the past 3 years to identify the types of
       issues inspectors identified when inspecting their parts. We chose a non-statistical
       sample because of the relatively small size of the universe. We based the sample
       selection on such factors as type of vendor and types of parts produced. Because
       selection was based on a judgmental sample, results and overall conclusions are limited
       to the items tested and cannot be projected to the entire population or universe.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. The audit included tests of controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objective. In
particular, we assessed the implementation of the GPRA Modernization Act of 2010 and found



                                               5
                                                                                    Attachment


that the Department had established performance measures related to quality assurance metrics.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We did not rely on computer-
processed data to satisfy our audit objective.

Management waived an exit conference.




                                               6
                                         FEEDBACK

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
